        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department's Management of
Scientific User Facilities




OAS-L-14-02                     February 2014
                                  Department of Energy
                                     Washington, DC 20585
                                         February 5, 2014



MEMORANDUM FOR THE ACTING DIRECTOR, OFFICE OF SCIENCE


FROM:                     Daniel M. Weeber
                          Assistant Inspector General
                             for Audits and Administration
                          Office of Inspector General

SUBJECT:                  INFORMATION: Audit Report on "The Department's Management of
                          Scientific User Facilities"

BACKGROUND

The Department of Energy's (Department) Office of Science operates 31 Scientific User
Facilities (user facilities). The user facilities are spread across the Office of Science's 6 Program
Offices and 14 locales, including 11 of the Department's national laboratories. These facilities
provide scientific researchers with the most advanced tools of modern science and include
accelerators, colliders, supercomputers, light sources and neutron sources, as well as facilities for
studying the nanoworld, the environment and the atmosphere. In Fiscal Year (FY) 2012, over
29,000 researchers from academia, industry and Government laboratories, as well as
international researchers, utilized these unique research facilities to advance scientific
knowledge. The Department's FY 2013 budget request included nearly $1.8 billion for user
facilities, an increase of $68.5 million over FY 2012.

The Department's Strategic Plan recognizes that the discoveries produced at these unique
facilities support the Department's mission and states that the success of these facilities should be
measured when scientific and technical results are disseminated. Furthermore, the Department
acknowledges that negative research results can be as valuable as positive results, and users are
encouraged to document and archive negative research results. The results of all research, except
that funded by proprietary interests, should be published upon completion. Recognizing the
importance of user facilities in achieving the Department's mission, we initiated this audit to
determine whether the Department was effectively managing its Scientific User Facilities.

RESULTS OF AUDIT

Nothing came to our attention to indicate that the Office of Science had not effectively
maximized the utilization of its user facilities and monitored user facility performance. Our
review of 2 Department laboratories that contained 8 of the Department's 31 user facilities found
that 2 neutron science facilities at the Oak Ridge National Laboratory (ORNL) exceeded 2011
goals for operating hours, while the Oak Ridge Leadership Computing Facility achieved a
utilization rate of over 95 percent of optimal hours. At Brookhaven National Laboratory
(Brookhaven) the National Synchrotron Light Source exceeded its planned operating hours and
the Relativistic Heavy Ion Collider achieved over 97 percent of its planned operating hours.

Further, we noted that the Office of Science conducted various periodic reviews of user facility
performance. These reviews included bimonthly teleconferences with facility managers and
program office assessments of facility responses to annual questionnaires. In addition, the Office
of Science held detailed triennial user facility reviews involving panels of external experts.

Although our review did not identify any major concerns, we did identify two areas in which
performance improvement may be possible. Specifically:

   •   ORNL and Brookhaven had not always publicly disseminated research results, whether
       positive or negative, for all completed or terminated nonproprietary research projects.

   •   Brookhaven had not always classified research correctly at its National Synchrotron
       Light Source. In two instances, proprietary research had been misclassified as
       nonproprietary. This issue, which was not identified and corrected until the user notified
       the Laboratory, could have led to under recovery of proprietary user research fees.

                           Public Dissemination of Research Results

ORNL and Brookhaven had not always publicly disseminated research results for nonproprietary
research projects. Both organizations had agreements in place that required all nonproprietary
research projects to report results, regardless of the outcome. However, neither site enforced
such user agreements. Furthermore, ORNL amended its new user agreements to require reports
only if requested by the site. In addition, negative research results were neither collected nor
archived and none of the facilities had a comprehensive process for tracking the results of
completed or terminated research projects to ultimate public dissemination.

As a result, the public and the scientific community may be deprived of valuable scientific
information derived from fundamental research performed at Department user facilities. Failure
to ensure public dissemination of all results could lead to duplicative or unproductive research
projects that ultimately prevent these valuable resources from being used for more productive
research. During a subsequent discussion with Brookhaven management officials, we learned
that they plan to implement additional procedures to monitor completed projects and ensure the
collection of nonproprietary project reports. These procedures include indentifying expiring
projects, reminding principal investigators of the report submission requirement, tracking report
submission status and maintaining reports at each user facility's administrative office.

                             Misclassification of Proprietary Usage

We found two instances in which Brookhaven had not properly classified proprietary research at
its National Synchrotron Light Source. Department Order 522.1, Pricing of Departmental
Materials and Services, states that proprietary users of a facility are to be charged a full cost
recovery fee. In addition, Chapter 13 of the Department's Financial Management Handbook
indicates that full funding is required prior to beginning work on any reimbursable agreement
                                                2
with an estimated cost of $25,000 or less, or that will be completed in 60 days or less. The
controls in place at Brookhaven's National Synchrotron Light Source did not ensure adequate
identification and classification of all proprietary research. As a result, approximately 25 hours
of proprietary facility usage were misclassified, and remained so until brought to management's
attention by the facility user. Had the user not self reported these misclassifications, the
Department may not have collected required usage fees, about $1,700, from the proprietary user.

Brookhaven officials told us that they had taken corrective action to strengthen controls relating
to the classification of research at the National Synchrotron Light Source. These actions include
a review of the research facility's monthly usage for each industrial user and certification by that
user that the usage was either nonproprietary or proprietary.

PATH FORWARD

To ensure that all research is adequately documented and archived, we suggest that the Office of
Science reiterate the importance of enforcing user agreements, to include the reporting of
research results for all nonproprietary projects, including those with negative results.

Additionally, to ensure the correct classification of research at the Brookhaven National
Synchrotron Light Source, we suggest the Manager, Brookhaven National Laboratory,
strengthen controls over research to appropriately classify it as proprietary or nonproprietary.

Attachment

cc:   Deputy Secretary
      Chief of Staff




                                                 3
                                                                                       Attachment
                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of the audit was to determine whether the Department of Energy (Department) was
effectively managing its Scientific User Facilities (user facilities).

SCOPE

We performed the audit between February 2013 and February 2014. Work was conducted at
user facilities at Brookhaven National Laboratory in Upton, New York and Oak Ridge National
Laboratory in Oak Ridge, Tennessee. Additional information was obtained from the Office of
Science in Germantown, Maryland. The audit was conducted under Office of Inspector General
Project Number A13GT018.

METHODOLOGY

To accomplish the objective of this audit, we:

   •   Researched applicable Federal and Department regulations and guidance;

   •   Reviewed prior Office of Inspector General and U.S. Government Accountability Office
       reports related to the audit objective;

   •   Reviewed current Department reports related to user facilities;

   •   Interviewed Department and contractor/facility management personnel with
       responsibility over user facilities;

   •   Judgmentally selected a sample of 2 Department sites with 8 user facilities from a
       universe of 14 Department sites with a total of 31 user facilities. This selection was
       based on the locations constituting a significant portion of the Department's budget and
       total facility users. Because a judgmental sample of sites and facilities was used, results
       are limited to the sites and facilities selected; and

   •   Selected statistical attribute samples from seven of the eight user facilities. One user
       facility was excluded due to the nature of its experimental design. Each of the 7 samples
       consisted of 66 research projects from each user facility's population of nonproprietary
       research projects to determine whether adequate support existed for the determination
       that projects were correctly classified as nonproprietary. A confidence level of 90
       percent, a precision level of plus or minus 3.5 percent, and an expected error rate of
       0 percent were used to determine the sample size. A statistical sample was selected to
       enable projection of the sample results across the entire population of nonproprietary
       projects at each user facility.



                                                 4
                                                                        Attachment (continued)


We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective. Accordingly, the audit included tests of
controls and compliance with laws and regulations necessary to satisfy the audit objective. In
particular, we assessed compliance with the GPRA Modernization Act of 2010, and found that
the Department had established performance measures related to Scientific User Facilities.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We did not rely on computer-
processed data to satisfy our audit objective.

An exit conference was waived by Office of Science management on January 22, 2014.




                                               5
                                                                    IG Report No. OAS-L-14-02


                             CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

   If you wish to discuss this report or your comments with a staff member of the Office of
   Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
